           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Attestation Engagement –                    Date:    November 23, 2011
           Review of FY 2011 Drug Control Obligation
           Summary and Performance Summary Reports
           NHTSA
           Project No. 12F3004F000

  From:    Louis C. King                                         Reply to
                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial and
           Information Technology Audits

    To:    National Highway Traffic Safety Administrator

           The Office of Inspector General (OIG) is initiating a review of the National Highway
           Traffic Safety Administration (NHTSA) fiscal year (FY) 2011 Drug Control
           Obligation Summary and Performance Summary Reports. The review will be
           conducted in accordance with the attestation standards established by the American
           Institute of Certified Public Accountants and generally accepted Government auditing
           standards.

           The objective of our review is to provide negative assurance as to whether any
           information came to our attention on the basis of the work performed to indicate that
           management’s assertions are not presented in all material respects, based on the
           requirements of the Office of National Drug Control Policy (ONDCP) Circular: Drug
           Control Accounting, May 1, 2007. We do not plan to express an opinion on the
           accuracy of the National Highway Traffic Safety Administration’s Drug Control
           Obligation Summary and Performance Summary Reports to ONDCP. We plan to
           begin the audit during the week of December 5, 2011. We will contact your audit
           liaison to schedule an entrance conference.

           The review of the NHTSA FY 2011 Drug Control Obligation Summary and
           Performance Summary Reports will be provided to ONDCP by February 1, 2012.
           Therefore, we request the signed FY 2011 Drug Control Obligation Summary and
           Performance Summary Reports be provided to us by December 9, 2011. If you have
                                                                                 2

any questions, please call me at (202) 366-1407 or Earl C. Hedges, Program Director,
at (410) 962-1729.

cc: Tony Johnson, NPO-310
    Martin Gertel, M-1
    Thomas Johnson, ONDCP
    Richelle Perazich, ONDCP

                                         #
